WAIVER

Supreme Court, U.S.
FILED

NOV 1 9 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Bradley R. Freeman

20-6190
New Mexico

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

11/4/2020

(Type or print) Name

Lauren Joseph Wolongevicz
Mr.

Firm

❑ Ms.

El Mrs.

El Miss

New Mexico Office of the Attorney General

Address

201 Third Street NW, Ste 300

City & State
Phone

signed by Lauren Joseph Wolongevicz
Date: 2020.11.04 08:58:53 -0700'

Lauren .Joseph

Albuquerque

(505) 717-3562

Zip
Email

NM

Iwolongevicz@nmag.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECI
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS R QuRECEIVE

CC: Charles Agoos

NOV 2 7 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

